UOUrt4 MjjptJcll. 13-/00^

uoc: o

i-nea: U4/U/72U2U

pg: 1 of 2

E. _A?i;y A,
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-7652
SEAN S. EARL,
Petitioner - Appellant,
v.
COMMONWEALTH OF VIRGINIA,
Respondent - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Richmond. Roderick Charles Young, Magistrate Judge. (3:19-cv-00547-REP-RCY) ’
Submitted: March 31, 2020

Decided: April 7,2020

Before FLOYD, THACKER, and RICHARDSON, Circuit Judges.
Dismissed by unpublished per curiam opinion.
Sean S. Earl, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

•^

i vOc

rneu. U*t/U//2U2U

Hg: 2 Ot 2

PER CURIAM:
Sean S. Earl filed a notice of appeal in his pending 28 U.S.C. §2254 (2018)
proceedings. This court may exercise jurisdiction only over final orders, 28 U.S.C. § 12-91
(2018), and certain interlocutory and collateral orders, 28 U.S.C. § 1292 (2018); Fed R
Civ. P. 54(b); Cohen v. Beneficial Indus. Loan Corp., 337 U.S. 541, 545-46 (1949). Here,
the district court has not entered a final order, and Earl fails to identify an interlocutory or
collateral order from which he seeks to appeal. See Fed. R. App. P. 3(c)(1)(B) (“The notice
of appeal must . . . designate the judgment, order, or part thereof being appealed).
Accordingly, we dismiss the appeal for lack of jurisdiction:

We dispense with oral

argument because the facts and legal contentions are adequately presented in the materials
before this court and argument would not aid the decisional process.
DISMISSED■■

2

c

I

Case 3:19-cv-00547-REP-RCY Document 7 Filed 09/26/19 Page 1 of 2 Page ID# 88

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
SEAN S. EARL,
Petitioner,
Civil Action No. 3:19CV547

v.
COMMONWEALTH OF VIRGINIA,
Respondent.
MEMORANDUM ORDER
(Serving 28 U.S.C. § 2254 Petition)

Petitioner, a Virginia state prisoner proceeding pro se> submitted a petition under 28 U.S.C.
§ 2254. Petitioner has paid the full filing fee. Upon consideration of Petitioner’s payment of the
full filing fee and the petition for a writ of habeas corpus, it is ORDERED that:
1.

The petition is FILED;

2.

Respondent shall file a responsive pleading within thirty (30) days of the receipt of

this Memorandum Order;
3.

Respondent will treat this Memorandum Order as a request that the records of the

state criminal trial and habeas corpus proceeding, if deemed pertinent and available, be forwarded
to the Clerk’s Office in Richmond, Virginia. Such records shall be returned to the proper
repository upon conclusion of the federal proceedings;
4.

Petitioner is subject to the requirements of Rule 5 of the Federal Rules of Civil

Procedure. From this point on, Petitioner must mail a copy of every document to counsel for
Respondent. No document submitted by Petitioner will be considered without an attached

Case 3:19-cv-00547-REP-RCY Document 7 Filed 09/26/19 Page 2 of 2 PagelD# 89

certificate stating that Petitioner has mailed a copy of the document to counsel for Respondent.
The required certificate must also show the date and manner of service;
5.

Petitioner immediately must advise the Court of his new address in the event he is

transferred, released, or otherwise relocated while the action is pending. FAILURE TO DO SO
MAY RESULT IN DISMISSAL OF THE ACTION: and.
6.

The Court DOES NOT ACCEPT documents or pleadings submitted on paper that

exceeds 8 1/2 inches by 11 inches in size, or that contains writing on the reverse side of a page.
ANY SUBMISSION MADE IN VIOLATION OF THIS PARAGRAPH WILL NOT BE
CONSIDERED BY THE COURT.
The Clerk of the Court is DIRECTED to serve Respondent. Service shall be made by
electronically transmitting a copy of this Memorandum Order and the Petition (ECF No. 5) to the
Attorney General for the Commonwealth of Virginia. A copy of this Memorandum Order shall
also be sent to Petitioner.
It is so ORDERED.

m

/s/
Roderick C. Young
//
United States Magistrate Juqge
Date: September Z/^. 2019
Richmond, Virginia

2

Case 3:19-cv-00547-REP-RCY Document 4 Filed 08/29/19 Page 1 of 2 PagelD# 69

LLLi
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division

AUG 2 92019

CLCfiKUaDISTRlCT COURT
RICHMOND. VA

SEANS. EARL,
Petitioner,
v.

Civil Action No. 3:I9CV547

COMMONWEATLH OF VIRGINIA,
Respondent.
MEMORANDUM ORDER
(Directing Petitioner to Complete and Return Form)
Petitioner, a Virginia inmate proceeding pro se, has submitted “PETITION FOR APPEAL
OF MOTION TO VACATE VOID JUDGMENT AB INITIO.” (ECF No. I.) Given the content
of this document, it is appropriate to give Petitioner the opportunity to pursue this action as a
petition for a writ of habeas corpus undo: 28 U.S.C. § 2254. See Rlvenbark v. Virginia, 305 F.
App’x 144,145 (4th Cir. 2008).
If Petitioner wishes to proceed pursuant to 28 U.S.C. § 2254, he must file a petition for a
writ ofhabeas corpus on the proper form. The Clerk is DIRECTED to write the civil action number
for the present action on the form and SEND the form to Petitioner. Because federal law prohibits
the filing of any second or successive § 2254 petition, see 28 U.S.C. § 2244(a), Petitioner is
strongly urged to present every available claim for relief in his first such motion. Petitioner is
warned that federal law imposes a one-year statute of limitations on § 2254 petitions. 28 U.S.C.
§ 2244(d). Petitioner is also reminded that, before this Court can consider a § 2254 petition, he
must first exhaust his state court remedies for all of his claims. See 28 U.S.C. § 2254(b), (c).
Exhaustion is accomplished by presenting the claims to the Supreme Court of Virginia for review
either on direct appeal or in a collateral proceeding.

zJ

Case3:19-cv-00547-REP-RCY Document 4 Filed 08/29/19 Page 2 of 2 PagelD# 70

If Petitioner wishes to proceed under 28 U.S.C. § 2254, he must complete and return the
form to the Court within twenty (20) days of the date of entry hereof. In the alternative, Petitioner
may file, within twenty (20) days of the date of entry hereof, a motion to withdraw this action. If
Petitioner fails to take any action within that time, the Court will dismiss the action without
prejudice. See Fed. R. Civ. P. 41(b).
All correspondence for the Court shall be directed to: Spottswood W. Robinson HI and
Robert R. Merhige, Jr,, Federal Courthouse, 701 East Broad Street, Richmond, VA 23219.
The Clerk is DIRECTED to send a copy of this Memorandum Order to Petitioner.
It is SO ORDERED,

IsL

Roderick C. Young
United States Magistrate
Date: August
. 2019
Richmond, Virginia

2

e

E.
-3

iV &
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
RICHMOND DIVISION
SEAN S. EARL, DOC #1198903,
Petitioner,
v.
COMMONWEALTH OF VIRGINIA,
Respondent.

38

Civil Action No. 3:19cv547

RESPONDENT'S MOTION TO DISMISS
AND RULE 5 ANSWER
The Director of the Department of Corrections, by counsel, pursuant to Rule 5, Rules
Governing Section 2254 Cases, moves the Court to dismiss Sean S. Earl’s petition for

a writ of

habeas corpus.
1.

The reasons requiring dismissal are set forth in the accompanying memorandum of.

law, which is incorporated by reference.
2

Each and every allegation not expressly admitted is denied.
The lack of merit of the petition is ascertainable from the record and the applicable

law without the need of an evidentiary hearing. See 28 U.S.C. § 2254(d), (e) (2000).
WHEREFORE, the respondent prays that the petition for a writ of habeas corpus will be
dismissed without an evidentiary7 hearing.
Respectfully submitted;
Harold Clarke, Director
By:
/s/
ELIZABETH KIERNAN FITZGERALD, AAG
VSB #82288
Attorney for Respondent

OFFICE OF THE ATTORNEY GENERAL
202 North Ninth Street.
Richmond, Virginia 23219

(804)786-2071
(804) 371-0151 (Fax)
OAGCriminalLitigation@courts.state.va.us

CERTIFICATE OF SERVICE
I hereby certify that on October 25, 2019, I have electronically filed the foregoing Motion
to Dismiss and Rule 5 Answer with the Clerk of Court using the CM/ECF system, and that I
have mailed the document, with exhibits, by United States Postal Service to the following non­
filing user: Sean Earl, #1198903, C-219, Red Onion State Prison, P.O. Box 970, Pound, VA
24279, petitioner herein.

By:
/s/
ELIZABETH KIERNAN FITZGERALD, AAG
VSB #82288
Attorney for Respondent

OFFICE OF THE ATTORNEY GENERAL
202 North Ninth Street
Richmond, Virginia 23219
(804) 786-2071
(804)371-0151 (Fax)
OAGCriminalLitigation@courts.state.va.us

2

— A’-A pp^h JiV 6
^

Case 3:19-cv-00547-REP-RCY Document 12 Filed 10/25/19

Page 1 of 7 PagelD# 96

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
RICHMOND DIVISION
SEAN S. EARL, DOC #1198903
Petitioner,
Civil Action No. 3:19cv547

v.
COMMONWEALTH OF VIRGINIA

i

Respondent.
BRIEF IN SUPPORT OF MOTION TO DISMISS
Respondent, by counsel, submits the following brief in support of his Motion to Dismiss
and Rule 5 Answer:
PROCEDURAL HISTORY
1.

The petitioner, Sean Earl, is detained pursuant to a final judgment of the City of

Portsmouth Circuit Court dated July 9, 2007.

Earl was convicted of second-degree murder.

malicious wounding, and two counts of use of a firearm in the commission of a felony, and was
sentenced to 56 years of incarceration with 25 suspended. (CR06002360-01, CR06002360-02,
CR06002360-03, CR06002360-04).
2.

Earl did not appeal his convictions.

1 Harold W. Clarke, in his official capacity as Director of the Virginia Department of
Corrections, is the person who has custody of the petitioner, and is the proper party respondent
pursuant to Rule 2 of the Rules Governing Section 2254 Cases. See Code §§ 53.1-20, 19.2-310.
Therefore, the Director of the Virginia Department of Corrections, by counsel, moves the Court
to substitute him as party respondent in this habeas corpus case in lieu of the Commonwealth of
Virginia.

Case 3:19-cv-00547-REP-RCY Document 12 Filed 10/25/19 Page 2 of 7 PagelD# 97

3.

Beginning in 2015, Earl filed a series of Motions to Vacate in the Portsmouth

Circuit Court.

His final motion to vacate was denied by the Portsmouth Circuit Court on May

25, 2018. (CR06002360-01, Final Order Motion to Vacate, Exhibit 1).
4.

Earl appealed this judgment to the Supreme Court of Virginia, which refused the

appeal on June 27, 2019. (Record No.. 180956, Petition and Order Exhibit 2).
PETITIONER’S CURRENT CLAIMS
5.

On or about July 25, 2019, Earl filed his current federal habeas petition raising the

following claims, reproduced here verbatim.
Ground 1:

The Court never took judicial notice that the location of the alleged
crime[s] were located in the Commonwealth (Pet. 6);

Ground 2:

Its decree in fixing and attaching liens upon the same was void
judgment and may be set aside and disregarded as a nullity (Pet.
8);

Ground 3:

The Circuit Court erred when it assumed jurisdiction of the case
from the inferior [General District Court] (Pet. 9); and

Ground 4:

The Circuit Court erred when it determined that the Petitioner
didn’t establish grounds for a Motion to Vacate. (Pet. 11).

(Pet. at 18).
THE PETITION IS UNTIMELY
6.

Earl’s petition is untimely pursuant to 28 U.S.C. § 2244(d) of the AEDPA. Under

section 2244(d)(1), petitioner must have filed his federal habeas petition within one year from:
(1) the time his conviction became final; (2) any state created impediment to filing a petition is
removed; (3) the United States Supreme Court recognized the constitutional right asserted; or (4)
the factual predicate for the claim could not have been discovered with due diligence. 28 U.S.C
§ 2244(d)( 1)(A)-(D):
7.

Earl does not allege any state impediments, a newly recognized constitutional

2

Case 3:19-cv-00547-REP-RCY Document 12 Filed 10/25/19 Page 3 of 7 PagelD# 98

right, or newly discovered evidence. Thus, his limitations period should be calculated from the
date on which his convictions became final.
8.

The City of Portsmouth Circuit Court entered final judgment in Earl’s cases on July

9, 2007, and Earl did not appeal his convictions. Therefore, Earl’s convictions became final 30days later on August 8, 2007, the date on which his time to petition for an appeal to the Court of
Appeals of Virginia expired. Va. Sup. Ct. Rule 5A:6.
9.

The petitioner had one year from that date, or until August 8, 2008, to file his

federal habeas petition. Earl’s current petition was filed on or about July 25, 2019, the day his
petition was mailed to the Court.2 Under these circumstances, Earl’s current petition was filed
more than ten years after the statute of limitations expired.
10.

Furthermore, although Earl filed multiple motions to vacate challenging the

conviction at issue in this case, those proceeding did not toll the federal limitations period.
Earl’s state pleadings, filed in beginning in '2015, were neither filed nor pending during the
statutory year. 28 U.S.C. § 2244(d)(2). Because Earl is not entitled to statutory tolling - and his
current petition was filed over ten years after his direct review process ended - Earl’s federal
petition is untimely and must be dismissed. See Trapp

Spencer, 479,F.3d 53, 58-59 (1st Cir.

2007); Vroman v. Brigano. 346 F.3d 598, 602 (6th Cir. 2003).
11.

The petitioner is also not entitled to equitable tolling. A habeas petitioner may be

permitted to file a federal habeas petition out of time if he can establish that he is entitled to
equitable tolling.

2

Equitable tolling is only available in federal habeas where the petitioner

•

The incarcerated pro se litigant’s habeas petition is considered filed when it is delivered to
prison officials to be mailed to the court. Lewis v. Richmond City Police Dept,. 947 F.2d 733
(4th Cir. 1991); Houston v. Lack. 487 U.S. 266 (1988).

3

Case 3:19-cv-00547-REP-RCY Document 12 Filed 10/25/19 Page 4 of 7 PagelD# 99

shows: (1) he pursued his rights diligently, and (2) some extraordinary circumstance prevented
him from timely filing his habeas petition.

See Holland v. Florida. 560 U.S. 631, 649 (2010).

See also Green v, Johnson, 515 F.3d 290, 304 (4th Cir. 2008). A habeas petitioner “bears the
burden of demonstrating that he is entitled to equitable tolling.” Vroman. 346 F.3d at 604. The
petitioner here cannot satisfy the two-pronged test in Holland. He has demonstrated neither the
circumstances nor the diligence required to invoke equitable tolling.
12.

For all of these reasons, the current federal habeas corpus petition should be

dismissed as time-barred.
EARL’S CLAIMS ARE EXHAUSTED BUT DEFAULTED
13.

Earl presented the same claims in the instant petition and the arguments in support

thereof to the Supreme Court of Virginia on appeal of his motion to vacate, see Petition, Exhibit
2, so he has exhausted these claims for purposes of federal habeas review. Matthews v. Evatt.
105 F.3d 907, 911 (4th Cir. 1997). Earl’s claims, however, are defaulted.
14.

“If a state court clearly and expressly bases its dismissal of a habeas petitioner’s

claim on a state procedural rule, and that procedural rule provides an independent and adequate
ground for the dismissal, the habeas petitioner has procedurally defaulted his federal habeas
claim.” See Breard v. Pruett, 134 F.3d 615, 619 (4th Cir. 1998). “A habeas petitioner is barred
from seeking federal review of a claim that was presented to a state court and ‘clearly and
expressly’ denied on the independent, adequate state ground of procedural default.” Bennett v.
Angelone, 92 F.3d 1336, 1343 (4th Cir. 1996) (citing Harris v. Reed. 489 U.S. 255, 263 (1989));
Coleman v. Thompson, 501 U.S. 722, 729-30 (1991). A state procedural rule is “adequate” if it is
firmly established and regularly or consistently applied by the state court and independent if it
does not depend on a federal constitutional ruling. Yeatts v. Angelone. 166 F.3d 255, 263-64

4

Case 3:19-cv-00547-REP-RCY Document 12 Filed 10/25/19
Page 5 of 7 PagelD# 100

(1998).
15.

In dismissing Earl’s claims, the Portsmouth Circuit Court3 held that it
no longer

had jurisdiction by operation of Virginia Supreme
Such a jurisdictional time limitation

Court Rule 1:1.

(Exhibit 1, Final Order).

is an independent and adequate state law ground that

precludes federal review of the merits of

a claim. Coleman. 501 U.S. at 740 - 41; see also.
a_qwley v. Landnn, 780 F.2d 440, 444 (4th Cir. 1985) (describing Rule 1:1
as an unambiguous
existing rule of law). Therefore, even if they were timely, all of Earl's claims

are procedurally

defaulted in this federal proceeding.
NO FEDERAL OIIFSTTON
16.

Federal courts can issue a writ of habeas

corpus to a state prisoner “only on the

ground that he is in custody in violation of the Constitution
States.

or laws or treaties of the United

Wilson v, Corcoran 562 U.S. 1, 5 (2010) (per curiam) (quoting 28 U.S.C. § 2254(a)).

See also Estelle ^-McGuire> 502 U.S. 62, 67 (1991) (quoting Lewis

v. Jeffers. 497 U.S. 764,

780) (“We have stated many times that “federal habeas

corpus relief does not lie for errors of
state law.”). By contrast, all of Earl's claims challenge the jurisdiction of the
state circuit court.
The circuit court's jurisdiction is defined by Virginia Code § 17.1-513. This statute provides that
[a]ll the circuit courts of the Commonwealth ‘have
original jurisdiction of all indictments for
felonies and of presentments, informations and indictments for misdemeanors.’”
Commonwealth, 661 S.E.2d 415, 427 (Va. 2008) (quoting Va.
trial court applied this statute properly is exclusively

Code § 17.1-513).

Porter v.
Whether the

a matter of state law, and presents no

3 The Supreme Court of Virginia summarily affirmed the
Portsmouth Circuit Court’s judgment
dismissing Earl’s
Motion
to Vacate
state-court
dec*.
tfH
^T^'xpL" £cZ’ “£<^>£5
hold that the federal
unexplained decision adapted theTame masoning™. ra"°"ale " Sh°Uld ,he" pr“ume that ,he

5

Case 3:19-cv-00547-REP-RCY Document 12 Filed 10/25/19 Page 6 of 7 PagelD# 101

federal question.

Accordingly, in addition to being untimely and defaulted, Earl’s state law

claims cannot support a grant of federal habeas corpus relief.
17.

Every allegation not expressly admitted by the respondent is denied.

18.

The lack of merit of petitioner’s claims is ascertainable from the record, and an

evidentiary hearing in this Court is not necessary. See 28 U.S.C. § 2254(e)(1) and (e)(2).
WHEREFORE, the respondent moves this Court to dismiss the petition for a writ of
habeas corpus.
Respectfully submitted,
Harold Clarke, Director
Respondent herein
/s/
Elizabeth Kiernan Fitzgerald
Assistant Attorney General
Elizabeth Kiernan Fitzgerald, AAG
VSB #82288
Attorney for Respondent
OFFICE OF THE ATTORNEY GENERAL
202 North Ninth Street
Richmond, Virginia 23219
. (804) 786-2071
(804) 371-0151 (Fax)
OAGCriminalLitigation@courts.state, va.us

6

Case 3:19-cv-00547-REP-RCY Document 12 Filed 10/25/19 Page 7 of 7 PagelD# 102

CERTIFICATE OF SERVICE
On October 25, 2019, I electronically filed this Brief in Support of Motion to Dismiss and
Rule 5 Answer with the Clerk of Court by using the CM/ECF system and mailed by UPS the
pleading and its attachments to the following CM/ECF non-participants: Sean Earl, #1198903,
C-219, Red Onion State Prison, P.O. Box 970, Pound, VA 24279.
By:
/s/
ELIZABETH KIERNAN FITZGERALD,-AAG
VSB #82288
Attorney for Respondent
OFFICE OF THE ATTORNEY GENERAL
202 North Ninth Street
Richmond, Virginia 23219
(804) 786-2071
(804) 371-0151 (Fax)
OA GCrimina IL it igat ion@courts. state. va. us .

7

tr( 3’^Pf ^ ^ c
VIRGINIA?
/o ^ Supmne Qmvd 4 Vnginia MdattfieSup
uerm Qaunt Sluitding. in the
^43Mimcndon5hwt*daytfa>27thdcu}<4
Sean S. Earl,
Appellant,
against

Record No. 180956
Circuit Court Nos. CR06-2360-01-04

Commonwealth of Virginia,
Appellee.
From the Circuit Court of the City of Portsmouth
Upon review of the record in this
case and consideration of the argument
submitted in support of the granting of a„ appea,, the Conn is of the op.nion there i
is no
reversible error in the judgment complained of. Accordingly, th
e Court refuses the petition for
appeal.

A Copy,
Teste:
Douglas B. Robelen, Clerk
By:
Deputy Clerk

l

CLERK
SUPREME COURTO] nRGi

hi

VIRGINIA: IN THE CIRCUIT COURT OF THE CITY OF PORTSMOUTH

.M^JEtTW
RICHMOND, VIRGINIA

A

COMMONWEALTH OF VIRGINIA,
v.

Case No: CR06-2360-01-04

SEAN S. EARL,
Defendant,
FINAL ORDER
In the above styled case, comes now the Defendant, Sean S. Earl, to be heard upon the
MOTION TO VACATE filed by the Defendant,/?™ se.
The instant motion is styled as a Motion to Vacate a void judgment pursuant to Va. Code § 8.01-428(D). In 2006, Defendant was found guilty of a multitude of offenses, including, inter .
alia, murder in the second degree. (CR06-2360-01-04). The Court imposed a total sentence of
fifty-six (56) years with twenty-five (25) years suspended. (Id).
Defendant now alleges that this Court’s orders regarding his conviction and sentence^
were void ab initio due to a lack of subject matter jurisdiction over the proceedings. Specifically,
Defendant contends that at the preliminary hearing during which his case was certified to this
Court, the Commonwealth failed to establish subject matter jurisdiction and venue for the
}

charged offenses. As such, the argument goes, when the charges were certified, this Court could
not assume subject matter jurisdiction over the proceedings because of the evidentiary defect.
Even assuming arguendo that Defendant is correct, and a that failure to establish subject matter
jurisdiction and venue at a preliminary hearing somehow divests the circuit court of its subject
matter jurisdiction, Defendant has failed to establish grounds for a motion to vacate. A cursory
review of the transcript of the preliminary hearing before the general district court reveals that

the Commonwealths only-witness established venue with specificity, reciting that charged
conduct had occurred at 3305*®§@wnes Street in the City of Portsmouth. No evidence was .
adduced to refute this testimony. As such, Defendant’s contention that venue was never
established is without merit and this Court properly assumed subject matter jurisdiction over the
case.

The Court, having thoroughly considered the Motion and upon review of this case and
the applicable law, concludes that the judgment against Defendant was not void ab initio.
Accordingly, more than twenty-one (21) days having passed since the entry of the Order of
Conviction against Defendant, this Court has no jurisdiction over his Motion to Vacate Judgment
pursuant to Rule 1:1 of the Rules of the Supreme Court of Virginia. Defendant’s Motion is
DENIED.
Pursuant to Rule 1:13 the endorsements of counsel and the pro se defendant are waived
and a copy of this order shall, upon entry, be mailed to the Commonwealth’s Attorney and to
Defendant at his listed address.
It is so ORDERED.
ENTERED this

day of

MY

/ Jy(00-S*
William S. Moore, dhief Judge
. Portsmouth Circuit Court.

, 2018.

